NO. 20-297
IN THE

Supreme Court of the United States
TRANSUNION LLC,

Petitioner,

v.
SERGIO L. RAMIREZ,

Respondent.
PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby certify
that on this tenth day of March 2021, I have served three (3) true
copies of the UC Berkeley Center for Consumer Law and Economic
Justice, DēMos, and Housing Clinic of Jerome N. Frank Legal Services
Organization at Yale Law School as Amici Curiae in Support of Sergio
L. Ramire by priority mail, postage prepaid upon:
Attorneys for Petitioner
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
(202) 389-5000
Attorneys for Respondents
Samuel Issacharoff
40 Washington Square South
New York, NY 10012
si13@nyu.edu
(212) 998-6580
Other
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Signed under the pains and penalties of perjury,
/s/

Rita L. Hemenway

Rita L. Hemenway
NOTARIZED BY:
/s/

George D. Bateman

George D. Bateman
My Commission Expires: May 30, 2025

2

